Nos. 19-1058, 19-1061

In the Supreme Court of the United States
HOSPIRA, INC.,
Petitioner,
v.
ELI LILLY AND COMPANY,
Respondent.
DR. REDDY’S LABORATORIES, LTD., ET AL.,
Petitioners,
v.
ELI LILLY AND COMPANY,
Respondent.
On Petitions for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION
DOV P. GROSSMAN
ADAM L. PERLMAN
DAVID M. KRINSKY
Counsel of Record
AMY MASON SAHARIA
LATHAM & WATKINS LLP
CHARLES L. MCCLOUD
555 Eleventh Street, NW
SUMEET P. DANG
Suite 1000
WILLIAMS & CONNOLLY LLP Washington, D.C. 20004
725 Twelfth Street, NW
(202) 637-2277
Washington, D.C. 20005
adam.perlman@lw.com
JAMES P. LEEDS
ELI LILLY AND COMPANY
Lilly Corporate Center
Indianapolis, IN 46285

QUESTION PRESENTED

Whether the court of appeals correctly applied the
tangentiality exception recognized in Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722
(2002), to the facts of these cases when it held that prosecution history estoppel does not bar respondent from
pursuing an infringement claim against petitioners under the doctrine of equivalents.

(I)

II
CORPORATE DISCLOSURE STATEMENT

Eli Lilly and Company has no parent corporation,
and no publicly held company holds 10% or more of its
stock.

III
TABLE OF CONTENTS

Page
Opinions Below ................................................................................1
Jurisdiction ......................................................................................2
Statement .........................................................................................2
Reasons for Denying the Petitions.............................................10
I.

The Federal Circuit’s Decision Is Consistent with
Festo .......................................................................................11
A. The Federal Circuit Correctly Applied Festo’s
Flexible Test ...................................................................11
B. Petitioners’ Arguments to the Contrary Lack
Merit ................................................................................15

II. There Is No Intra-Circuit Conflict ....................................21
III. The Petitions Do Not Present an Important Question
Warranting the Court’s Review .........................................25
Conclusion ......................................................................................29

IV
TABLE OF AUTHORITIES

Page
Cases:
Ajinomoto Co. v. ITC,
932 F.3d 1342 (Fed. Cir. 2019) ................................... 20, 23
Amgen Inc. v. Hoechst Marion Roussel, Inc.,
457 F.3d 1293 (Fed. Cir. 2006) ......................................... 23
Eli Lilly & Co. v. Dr. Reddy’s Labs., Ltd.,
323 F. Supp. 3d 1042 (S.D. Ind. 2018) ............................... 2
Eli Lilly & Co. v. Hospira, Inc.,
2018 WL 3008570 (S.D. Ind. 2018). ................................... 2
Eli Lilly & Co. v. Hospira, Inc.,
933 F.3d 1320 (Fed. Cir. 2019). .......................................... 1
Eli Lilly & Co. v. Medtronic, Inc.,
496 U.S. 661 (1990) .............................................................. 7
Eli Lilly & Co. v. Teva Parenteral Meds., Inc.,
845 F.3d 1357 (Fed. Cir. 2017) ........................................... 7
Felix v. Am. Honda Motor Co.,
562 F.3d 1157 (Fed. Cir. 2009) ................................... 23, 25
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki
Co., 234 F.3d 558 (Fed. Cir. 2000) (en banc) .................. 12
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki
Co., 535 U.S. 722 (2002) ........................................... passim
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki
Co., 344 F.3d 1359 (Fed. Cir. 2003) (en banc) ................ 14
Graver Tank & Mfg. Co. v. Linde Air Prods. Co.,
339 U.S. 605 (1950) ...................................................... 11, 26
Honeywell Int’l, Inc. v. Hamilton Sunstrand Corp.,
523 F.3d 1304, 1315 (Fed. Cir. 2008)............................... 25
Insituform Techs., Inc. v. CAT Contracting, Inc.,
385 F.3d 1360 (Fed. Cir. 2004)............................. 22, 23, 27
Integrated Tech. Corp. v. Rudolph Techs., Inc.,
734 F.3d 1352 (Fed. Cir. 2013) ......................................... 22

V
Page
Cases—continued:
Lucent Techs., Inc. v. Gateway, Inc.,
525 F.3d 1200 (Fed. Cir. 2008) ......................................... 22
Neptune Generics, LLC v. Eli Lilly & Co.,
921 F.3d 1372 (Fed. Cir. 2019) ........................................... 7
Regents of Univ. of Cal. v. Dakocytomation Cal.,
Inc., 517 F.3d 1364 (Fed. Cir. 2008) ................................ 22
Warner-Jenkinson Co. v. Hilton Davis Chem. Co.,
520 U.S. 17 (1997) ..................................................... passim
Winans v. Denmead, 56 U.S. 330 (1853) ............................. 26
Statutes:
Food, Drug, and Cosmetic Act § 505(b)(2),
21 U.S.C. § 355(b)(2) ........................................................... 7
28 U.S.C. § 1254(1) ..................................................................... 2
Other Authorities:
FDA, Determining Whether to Submit an ANDA
or a 505(b)(2) Application: Guidance for
Industry (May 2019),
https://tinyurl.com/505b2guidance .................................... 7

In the Supreme Court of the United States
HOSPIRA, INC.,
Petitioner,
v.
ELI LILLY AND COMPANY,
Respondent.
DR. REDDY’S LABORATORIES, LTD., ET AL.,
Petitioners,
v.
ELI LILLY AND COMPANY,
Respondent.
On Petitions for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit

BRIEF IN OPPOSITION
OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1a31a) is reported at 933 F.3d 1320.1 The order of the court
of appeals denying rehearing en banc (Pet. App. 48a-49a)
is unreported. The opinion and order of the district
court granting summary judgment to respondent with
The court of appeals issued a combined opinion resolving separate
appeals filed by Hospira, Inc. (petitioner in No. 19-1058) and Dr.
Reddy’s Laboratories, Ltd., et al., (petitioners in No. 19-1061). Respondent is filing a joint brief in opposition to both petitions. Unless
otherwise noted, citations to “Pet. App.” are to the appendix to the
petition filed by Hospira, Inc. in No. 19-1058.

1

2
respect to petitioner Hospira, Inc. (Hospira) (Pet. App.
32a-47a) is unreported and available at 2018 WL
3008570. The findings of fact and conclusions of law issued by the district court with respect to respondent’s
claim against petitioners Dr. Reddy’s Laboratories, Ltd.
and Dr. Reddy’s Laboratories, Inc. (collectively, DRL)
are reported at 323 F. Supp. 3d 1042 (DRL Pet. App. 3349).
JURISDICTION

The judgments of the court of appeals were entered
on August 9, 2019. A petition for rehearing was denied
on November 8, 2019. The petitions for a writ of certiorari were filed on February 24, 2020. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1254(1).
STATEMENT

Respondent Eli Lilly and Company (Lilly) manufactures and sells ALIMTA®, a drug that treats mesothelioma and certain types of lung cancer. The active chemotherapeutic agent in ALIMTA is pemetrexed. In ALIMTA, the pemetrexed is present as a salt form,
pemetrexed disodium. Lilly is the assignee of U.S. Patent No. 7,772,209 (the ’209 patent), which claims a
method of administering pemetrexed disodium involving
pretreating patients with folic acid and vitamin B12. The
purpose of the claimed method is to reduce the incidence
of pemetrexed’s potentially severe toxicities without
compromising its efficacy in treating cancer.
Under the Hatch-Waxman Act, petitioners Hospira,
Inc. (Hospira) and Dr. Reddy’s Laboratories, Ltd. and
Dr. Reddy’s Laboratories, Inc. (collectively, DRL)
sought FDA approval to sell a different salt form of
pemetrexed, pemetrexed ditromethamine. Neither Hospira nor DRL performed any human clinical trials of

3
their pemetrexed ditromethamine products. Rather,
their applications to FDA relied on Lilly’s data proving
the efficacy and safety of Lilly’s pemetrexed disodium
product ALIMTA when used in combination with folic
acid and vitamin B12.
Lilly sued petitioners, asserting claims for patent infringement under the doctrine of equivalents. In response, Hospira and DRL each contended that prosecution history estoppel barred Lilly from asserting infringement claims under that doctrine. Their estoppel
arguments were based on a narrowing amendment Lilly
made to its patent claims during prosecution of the ’209
patent. To rebut the presumption of estoppel, Lilly invoked the tangentiality exception to prosecution history
estoppel recognized by this Court in Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722
(2002). The district court and a unanimous panel of the
Federal Circuit agreed with Lilly. Based on the prosecution record, the courts found that Lilly had amended
its claims to overcome prior art related to a different antifolate other than pemetrexed and that the rationale for
the amendment was tangential to petitioners’ equivalents, which use the same antifolate as Lilly’s patented
invention. The Federal Circuit denied en banc review
without dissent.
Petitioners argue that the decision below conflicts
with this Court’s decision in Festo. Petitioners also argue that there is an intra-circuit conflict about how to
apply Festo. But the asserted conflicts are of petitioners’
own making. None of the usual objective indicia of such
conflicts—such as commentary identifying a conflict, or
calls by dissenting judges for en banc review or review
by this Court—exist. And petitioners tellingly cannot
even agree between themselves about what the purported conflicts are.

4
Nor has the Federal Circuit turned Festo’s tangentiality exception into a categorical “buyer’s remorse” exception, as petitioners claim. This Court adopted a flexible approach to prosecution history estoppel in Festo.
The court of appeals has faithfully applied the tangentiality exception by asking whether the reason for claim
amendment, as indicated by the objective prosecution
record, is tangential or peripheral to the claimed equivalent. Unsurprisingly, it has reached different outcomes
in cases involving different facts and records. That is no
reason to grant certiorari. Nor is it reason to engraft petitioners’ rigid rules onto the flexible approach announced in Festo.
At bottom, petitioners complain only about how the
Federal Circuit applied the tangentiality exception to the
facts of this case. Even if that court erred—and it did
not—its fact-bound decision would not merit the Court’s
attention. This Court has already rejected petitioners’
public notice arguments in repeatedly reaffirming the
existence of the doctrine of equivalents and in adopting
the tangentiality exception in the first place. The doctrine of equivalents protects patent rights, and prevents
infringers from evading responsibility, in precisely the
circumstances presented here. The petitions should be
denied.
1. Pemetrexed, the active chemotherapeutic agent in
ALIMTA, is an “antifolate.” Antifolates are a class of
chemotherapy drugs that fight cancer by inhibiting certain enzymes that use compounds called “folates” in the
course of making DNA. Cancerous tumors need DNA in
order to grow, and antifolates interfere with DNA synthesis.
The same mechanism that makes antifolates effective in treating cancer can also cause toxicity to healthy
cells, particularly those that divide rapidly. When antifo-

5
lates interfere with DNA production in healthy cells, it
can lead to severe and even fatal consequences for patients receiving antifolate chemotherapy. These toxicities historically complicated the development of antifolates. Pet. App. 6a.
During pemetrexed’s development, patients in a clinical trial suffered severe toxicities from the drug, and
several patients died.
This threatened to stop
pemetrexed’s development. But a Lilly scientist named
Clet Niyikiza—the named inventor of the ’209 patent—
discovered a novel way to mitigate these toxicities and
thereby make pemetrexed safe enough to use as a cancer
treatment. Specifically, Dr. Niyikiza discovered that
pemetrexed’s toxicities can be significantly reduced by
pretreating patients with folic acid—which is a folate—
and vitamin B12. This method of treatment reduces the
incidence of severe toxicities that can be associated with
pemetrexed treatment, but surprisingly does not compromise the drug’s anticancer efficacy. The ALIMTA
label instructs that a patient must receive this regimen
of folic acid and vitamin B12 pretreatment prior to receiving ALIMTA. DRL C.A. App. 7811.
Lilly distributes ALIMTA as a solid powder formulation of pemetrexed disodium. In this form, the
pemetrexed is bonded to two sodium ions. ALIMTA is
not administered to patients as a solid, however. Pet.
App. 35a. It is dissolved in saline solution so it can be injected into the patient intravenously. Pet. App. 35a.
When pemetrexed disodium dissolves, the pemetrexed
and sodium separate, or “dissociate,” from each other,
meaning that what is administered to a patient is a solution containing pemetrexed ions and sodium ions. Pet.
App. 10a, 15a The dissociated sodium ions do not play
any role in treating a patient’s cancer or in the claimed

6
invention’s reduction in toxicity; the pemetrexed ions are
the active ingredients that fight cancer.
2. Lilly is the assignee of the ’209 patent, which
claims Lilly’s improved method of administering
pemetrexed chemotherapy by pretreating patients with
folic acid and vitamin B12 and then treating the patient
with pemetrexed disodium.
Petitioners’ prosecution history estoppel claim centers around an amendment made during the prosecution
of U.S. Patent Application No. 10/297,821 (the ’821 application), one of the applications leading to the ’209 patent.
As relevant here, Lilly’s application claimed administration of “an antifolate” following pretreatment with a
methylmalonic acid lowering agent (a class that includes
vitamin B12). The examiner rejected this claim over a
prior art reference, Arsenyan, that discloses pretreatment with a vitamin B12 derivative before administration
of methotrexate, a different antifolate. Arsenyan makes
no reference to different salt forms of methotrexate or
any other antifolate. Nor does it refer at all to
pemetrexed, let alone different salt forms of pemetrexed.
DRL C.A. App. 7880, 8504-8507.
In response to the Arsenyan rejection, Lilly amended its claims to replace administration of “an antifolate”
with administration of “pemetrexed disodium.” The reason for Lilly’s amendment was to avoid Arsenyan and its
disclosure of methotrexate by specifying a particular active antifolate—pemetrexed—that was not methotrexate. Pet. App. 21a. Lilly’s amendment was not made to
distinguish pemetrexed disodium from different salt
forms of pemetrexed (which are all the same active antifolate, pemetrexed). Id.
The examiner withdrew the Arsenyan rejection in
view of Lilly’s amendment. When Lilly filed U.S. Application No. 11/776,329, which ultimately issued as the ’209

7
patent, Lilly carried through the amendment from administering
“an
antifolate”
to
administering
“pemetrexed disodium.” DRL C.A. App. 46, 52-53, 54665470.
The ’209 patent issued on August 10, 2010. The
Federal Circuit and the Patent Trial and Appeal Board
have affirmed its validity against repeated challenges by
other of Lilly’s generic competitors. See Neptune Generics, LLC v. Eli Lilly & Co., 921 F.3d 1372 (Fed. Cir.
2019); Eli Lilly & Co. v. Teva Parenteral Meds., Inc., 845
F.3d 1357 (Fed. Cir. 2017).
3. Petitioners each filed a “paper” new drug application (NDA) under section 505(b)(2) of the Federal Food,
Drug, and Cosmetic Act, 21 U.S.C. § 355(b)(2), seeking
approval to sell their own pemetrexed products before
expiration of the ’209 patent.2 As “paper” NDAs, petitioners’ NDAs, like abbreviated new drug applications,
rely on Lilly’s ALIMTA clinical data to establish the
safety and efficacy of their pemetrexed products. See
Eli Lilly & Co. v. Medtronic, Inc., 496 U.S. 661, 676
(1990).

The Section 505(b)(2) “paper” NDA approval pathway was added
to the Food and Drug Act as part of the Hatch-Waxman Act. Like
an Abbreviated New Drug Application (ANDA), a “paper” NDA
allows the applicant to rely on data developed by an existing
approved branded drug. However, unlike an ANDA, a “paper”
NDA allows for limited modifications to the proposed product
compared to the branded product, including in the dosage form,
route of administration, or (as here) the salt form. See FDA,
Determining Whether to Submit an ANDA or a 505(b)(2)
Application:
Guidance
for
Industry
(May
2019),
https://tinyurl.com/505b2guidance.
2

8
In an attempt to avoid the ’209 patent, petitioners
propose to sell pemetrexed ditromethamine—that is, a
product containing the same active antifolate
(pemetrexed) in an alternate salt formulation (ditromethamine). Like ALIMTA, petitioners’ products would
be dissolved in solution before administration, separating
the pemetrexed ions from the salt ions and resulting in
administration of pemetrexed ions to the patient. Also
like ALIMTA, petitioners’ products would be administered only after pretreatment with folic acid and vitamin
B12, avoiding the toxicities associated with pemetrexed in
the same manner as in the ’209 patent. And like the sodium in pemetrexed disodium, the tromethamine in petitioners’ pemetrexed ditromethamine is irrelevant to the
treatment of cancer and to the use of the patented method to reduce pemetrexed toxicity.
4. In 2016, Lilly filed separate patent-infringement
suits against petitioners in the United States District
Court for the Southern District of Indiana. Lilly alleged
that petitioners’ pemetrexed ditromethamine products
would infringe the ’209 patent under the doctrine of
equivalents. Petitioners argued that prosecution history
estoppel barred Lilly from pursuing infringement under
that doctrine. In response, Lilly asserted that the tangentiality exception to prosecution history estoppel rebutted the presumption of estoppel.
The district court agreed with Lilly and entered
judgment in its favor against each petitioner. In each
case, the court first found that a person of ordinary skill
would conclude from the prosecution history that the
reason for Lilly’s amendment was to avoid Arsenyan and
its disclosure of the antifolate methotrexate. The court
further concluded that this reason was only tangentially
related to petitioners’ alleged equivalent using a different salt form of the same antifolate (pemetrexed) from

9
the one in the patent claims. Pet. App. 40a-43a; DRL
Pet. App. 37-38.
5. In a consolidated opinion, the Federal Circuit
unanimously affirmed the district court’s decisions regarding prosecution history estoppel. Pet. App. 1a-31a.
As the court of appeals recognized, “[t]he reason for
Lilly’s amendment . . . was to narrow original claim 2 to
avoid Arsenyan, which only discloses treatments using
methotrexate, a different antifolate.” Pet. App. 21a. Petitioners had urged the court to find that by making the
amendment, Lilly had surrendered all antifolates except
pemetrexed disodium, including petitioners’ proposed
pemetrexed ditromethamine equivalent.
The court
found “a less sweeping and more sensible reason for
Lilly’s amendment: to surrender antifolates other than
pemetrexed.” Pet. App. 26a. And the court concluded
that this rationale “was merely tangential” to the equivalent at issue—a different salt form of pemetrexed. Pet.
App. 26a.
In reaching this conclusion, the court of appeals considered, and rejected, various arguments from petitioners as to why the tangentiality exception should not apply. Pet. App. 19a-26a. As relevant here, DRL had argued that “an applicant’s remorse at ceding more claim
scope than necessary is not a reason for the tangential
exception to apply.” Pet. App. 22a. The court of appeals
agreed with that general proposition, but rejected DRL’s
categorical position that the tangentiality exception can
never apply when a claimant narrows a claim beyond the
minimum necessary to overcome prior art. Pet. App.
22a. According to the court, “the tangential exception
only exists because applicants over-narrow their claims
during prosecution.” Pet. App. 22a. At the same time,
the court emphasized that it was not holding that the
tangentiality exception automatically applies when an

10
applicant surrenders more claim scope than necessary.
Pet. App. 22a. Instead, the court explained that it was
necessary to examine “the reason for an amendment” by
reference to “the context in which it was made, including
the prior art that might have given rise to the amendment in the first place.” Pet. App. 22a. This inquiry, the
court further explained, is “case-specific” and requires
“direct consideration of the specific record of this case
and what it shows about the reason for amendment and
the relation of that reason to the asserted equivalent.”
Pet. App. 24a n.5.
Because the reason for Lilly’s amendment was tangential to the claimed equivalent in these cases, the court
held that prosecution history estoppel did not bar application of the doctrine of equivalents. Pet. App. 26a.
6. The court of appeals denied rehearing en banc
without dissent. Pet. App. 48a-49a.
REASONS FOR DENYING THE PETITIONS

The petitions are about the tangentiality exception
to the prosecution history estoppel exception to the doctrine of equivalents in patent law. The district court and
the unanimous Federal Circuit found that the tangentiality exception applies on the facts of this case. Petitioners
disagree. They argue that the Federal Circuit’s decision
conflicts with this Court’s decision in Festo and with other Federal Circuit decisions, and they invite this Court
to erect new, rigid rules governing the tangentiality exception. But petitioners ask this Court to grant review
of a decision that the Federal Circuit did not make: the
court of appeals expressly rejected the very rule petitioners claim it adopted. And petitioners ask this Court
to review conflicts that do not exist. This Court has already rejected the sort of bright-line rules that petitioners purport to divine from Festo. None of the traditional

11
indicia of the asserted intra-circuit conflicts exists. And
the fact that petitioners do not agree on the precise conflict, or on the purportedly correct bright-line rule, further confirms that this is a “conflict” of their own making. The petitions should be denied.
I.

The Federal Circuit’s Decision Is Consistent with Festo

In Festo, this Court explained the circumstances in
which patentees who have narrowed a claim during prosecution should nevertheless be permitted to avail themselves of the doctrine of equivalents. Among other
things, the Court found no reason “to foreclose claims of
equivalence for aspects of the invention that have only a
peripheral relation to the reason the amendment was
submitted.” 535 U.S. at 738. The Federal Circuit correctly applied Festo to hold that prosecution history estoppel did not bar Lilly from asserting infringement-byequivalents claims on the facts presented here, where
Lilly’s narrowing of the claims to one active antifolate
had nothing to do with the selection of a particular
pemetrexed salt. Petitioners’ arguments to the contrary
misconstrue the decision below and rest on the type of
rigid rules that this Court rejected in Festo.
A.

The Federal Circuit Correctly Applied Festo’s
Flexible Test

1. The doctrine of equivalents protects patentees
when infringers make “unimportant and insubstantial
changes . . . which, though adding nothing, would be
enough to take the copied matter outside the claim.”
Graver Tank & Mfg. Co. v. Linde Air Prods. Co., 339
U.S. 605, 607 (1950). To protect against copying by
means of immaterial alterations, “[t]he scope of a patent
is not limited to its literal terms but instead embraces all
equivalents to the claims described.” Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 732
(2002). The doctrine has a long history and “remain[s] a

12
firmly entrenched part of the settled rights protected by
the patent.” Id. at 733.
A patentee’s ability to assert infringement under the
doctrine of equivalents is not unlimited. As this Court
explained in Warner-Jenkinson Co. v. Hilton Davis
Chem. Co., 520 U.S. 17 (1997), “prosecution history estoppel” applies as part of the infringement analysis to
prevent a patentee from using the doctrine of equivalents to recapture certain claim scope given up during
prosecution. Id. at 30-31. In that case, the Court put the
burden on the patentee to “establish the reason for an
amendment required during patent prosecution,” allowing a court then to decide whether that explanation was
sufficient to overcome estoppel. Id. at 33-34. That is inherently a “flexible” inquiry, as the Court explained; that
a “rule might provide a brighter line for determining
whether a patentee is estopped under certain circumstances is not a sufficient reason for adopting such a
rule.” Id. at 32 n.6.
Following Warner-Jenkinson, the en banc Federal
Circuit (in a badly fractured decision) nevertheless
adopted a new, bright-line rule, under which a finding
that prosecution history estoppel applied due to a narrowing amendment during prosecution completely
barred all claims of equivalence to the narrowed element.
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co.,
234 F.3d 558 (Fed. Cir. 2000) (en banc). This Court
granted certiorari, vacated the Federal Circuit’s decision, and once again rejected a rigid approach. This
Court held that while prosecution history estoppel limits
the doctrine of equivalents, it does not impose an absolute bar on the doctrine’s application. Festo, 535 U.S. at
737-38.
The Federal Circuit’s per se rule, the Court stated,
was “inconsistent with the purpose of applying the es-

13
toppel in the first place—to hold the inventor to the representations made during the application process and to
the inferences that may reasonably be drawn from the
amendment.” Id. at 737-38. It was also inconsistent with
the Court’s “consistent[] appli[cation] of [prosecution
history estoppel] in a flexible way, not a rigid one.” Id. at
738. As the Court explained, an amendment made during prosecution concedes “that the patent does not extend as far as the original claim,” but “[i]t does not follow . . . that the amended claim becomes so perfect in its
description that no one could devise an equivalent.” Id.
The Festo Court identified various scenarios in
which “the narrowing amendment . . . may still fail to
capture precisely what the claim is.” Id. For one,
“[t]here is no reason why a narrowing amendment
should be deemed to relinquish equivalents unforeseeable at the time of the amendment and beyond a fair interpretation of what was surrendered.” Id. For another,
there is no reason “to foreclose claims of equivalence for
aspects of the invention that have only a peripheral relation to the reason the amendment was submitted.” Id.
According to the Court, a “flexible” inquiry taking into
account these considerations was preferable to the “rigid” rule adopted by the Federal Circuit. Id.
The Court summarized its approach as follows:
There are some cases . . . where the amendment
cannot reasonably be viewed as surrendering a
particular equivalent. [1] The equivalent may
have been unforeseeable at the time of the application; [2] the rationale underlying the amendment may bear no more than a tangential relation to the equivalent in question; or [3] there
may be some other reason suggesting that the
patentee could not reasonably be expected to
have described the insubstantial substitute in

14
question. In those cases the patentee can overcome the presumption that prosecution history
estoppel bars a finding of equivalence.
Id. at 740-41. As evidenced by the Court’s use of the
word “or,” those scenarios are independent exceptions to
the presumption of estoppel.
With respect to the tangentiality exception—the exception applied here—the question is “whether the reason for the narrowing amendment was peripheral, or not
directly relevant, to the alleged equivalent.” Festo Corp.
v. Shoketsu Kinzoku Kogyo Kabushiki Co., 344 F.3d
1359, 1369 (Fed. Cir. 2003) (en banc). This reason must
be “objectively apparent” and “discernible from the
prosecution history record[.]” Id. So long as the basis
for application of the exception is discernible from the
prosecution record, the public is on notice, eliminating
any concerns about the public notice function of the
claims. See id.
2. The Federal Circuit correctly applied these principles to the facts of this case. In the prosecution
amendment at issue, Lilly narrowed its claims from administering an antifolate, in general, to administering
pemetrexed disodium, in particular, in light of a prior
publication (Arsenyan), “which only discloses treatments
using methotrexate, a different antifolate.” Pet. App.
21a. The court of appeals correctly observed that the
prosecution record reveals that Lilly narrowed its original claim “to more accurately define what it actually invented, an improved method of administering
pemetrexed.” Pet. App. 21a. Lilly argued, and the court
of appeals agreed, that a person of ordinary skill would
understand that the “reason for [Lilly’s] amendment was
to distinguish pemetrexed from antifolates generally.”
Pet. App. 20a.

15
The Federal Circuit further correctly concluded that
the rationale for the amendment was tangential to the
use of petitioners’ alternative pemetrexed salts in lieu of
pemetrexed disodium. Pet. App. 21a-22a. As the court
explained, “the particular type of salt to which
pemetrexed is complexed relates only tenuously to the
reason for the narrowing amendment.” Pet. App. 21a.
Indeed, prior art publications considered by the patent
examiner showed that the form of pemetrexed could not
have been relevant to the amendment, as that art disclosed methods of administering pemetrexed disodium,
albeit without Lilly’s inventive approach to reducing
pemetrexed toxicity. Pet. App. 21a-22a. “[N]arrowing
‘antifolate’ to ‘pemetrexed disodium’ could not possibly
distinguish” these publications. Pet App. 22a. The prosecution history thus makes clear that Lilly’s amendment
had nothing to do with the particular salt form of
pemetrexed. The Federal Circuit correctly held that the
tangentiality exception applies.
B. Petitioners’ Arguments to the Contrary Lack Merit

Petitioners offer a series of reasons, sometimes conflicting, for why the decision below is inconsistent with
Festo. Each of those arguments fails. If anything, it is
petitioners’ arguments—which attempt to divine a rigid
set of rules from Festo’s flexible approach—that conflict
with Festo.
1. Petitioners caricature the decision below as creating a “buyer’s remorse” defense—i.e., that whenever a
patentee narrows more than necessary to avoid prior art
based on “post-hoc” reasoning, the amendment is automatically tangential. Hospira Pet. 16, 30; DRL Pet. 2021. The Federal Circuit did no such thing. Although neither petition acknowledges this, the court of appeals explicitly rejected that very rule: “[a]mendments are not

16
construed to cede only that which is necessary to overcome the prior art . . . nor will the court ‘speculat[e]’
whether an amendment was necessary.” Pet. App. 22a.
The court did not apply a “buyer’s remorse” defense, in
name or substance.
Instead, consistent with this Court’s instructions in
Festo, the Federal Circuit examined “the reason for
[Lilly’s] amendment” with “reference to the context in
which it was made, including the prior art that might
have given rise to the amendment in the first place.”
Pet. App. 22a. And having considered “the subject matter surrendered by the narrowing amendment,” the
court of appeals determined that the equivalent here
bore “only a peripheral relation to the reason the
amendment was submitted.” Festo, 535 U.S. at 737-38.
In other words, the court correctly analyzed prosecution
history estoppel and the question of tangentiality by considering the particular facts of this case, without resort
to any “rigid rule.” See Warner-Jenkinson, 520 U.S. at
32; see also Festo, 535 U.S. at 738.
2. Petitioners further contend that the Federal Circuit’s decision is inconsistent with a panoply of brightline rules they purport to glean from Festo, but petitioners cannot even agree on what those rules are. For good
reason: Festo announced no per se rules; it rejected
them.
a. Hospira seizes on a single sentence from the end
of the Court’s opinion in Festo as undoing the multifaced, practical approach adopted in that case: “The patentee must show that at the time of the amendment one
skilled in the art could not reasonably be expected to
have drafted a claim that would have literally encompassed the alleged equivalent.” 520 U.S. at 741. According to Hospira, unless the patentee can show that “it
could not reasonably have amended the claim so as to

17
encompass the claimed equivalent,” it cannot invoke the
tangentiality exception to overcome prosecution history
estoppel. Hospira Pet. 17.
The end of the opinion is not the first time that the
Court used this exact language; it also did so in the very
paragraph in which it articulated three separate ways
that the presumption of surrender could be overcome.
By divorcing this sentence from its context and focusing
on whether Lilly could have drafted an amendment including Hospira’s equivalent, Hospira improperly deprives the tangentiality exception of independent meaning. Hospira asserts that Lilly might justify its failure to
draft a broader claim if it “could not have foreseen that a
competitor used a different pemetrexed compound.”
Hospira Pet. 15. But this Court articulated unforeseeability and tangentiality as separate exceptions in Festo.
See 535 U.S. at 738, 740-41. Each exception represents a
different way of showing why “one skilled in the art
could not reasonably be expected to have drafted a claim
that would have literally encompassed the alleged equivalent.” Id. at 741. The former exception focuses on
whether the equivalent was foreseeable; the latter focuses on the reason for amendment and its relation to the
equivalent. Hospira’s approach would merge the two exceptions into one.
Hospira’s argument reads the words “be expected
to” out of the sentence it invokes. Festo does not ask
whether it was impossible for the patentee to draft its
claims to cover the equivalents. There are varying reasons why an amended claim may fail to capture an equivalent; as this Court recognized in Festo, a “narrowing
amendment may demonstrate what the claim is not; but
it may still fail to capture precisely what the claim is.”
Id. at 738. That may occur where, as here, the patentee
at the time of amendment is focused on distinguishing

18
prior art unrelated to the equivalent in question. Tangentiality is thus a way in which a patentee can show
that it “could not reasonably be expected” to have drafted a claim encompassing the equivalent, because there
was no reason for the patentee to have considered the
equivalent when making the amendment.3
Hospira’s fruit hypothetical (at 18) illustrates the
point. Consider a patentee that amends its claim describing “fruit” to one describing “Red Delicious apples.”
One reason why the patentee might not have drafted its
claim to include “Honeycrisp apples” is because they had
not yet been discovered and were thus unforeseeable as
an equivalent. But another, equally valid reason might
be that the issue presented by the prior art had nothing
to do with different types of apples and therefore the patentee was focused on a different issue entirely. Thus, if
the prior art related to bananas, there is no reason that
the patentee would be reasonably expected to focus on
potential equivalents within the apple family. The same
amendment to avoid prior-art bananas, on the other
hand, might well bar a doctrine-of-equivalents claim
against grapes, as the categories of fruit covered by the
claim was the issue presented by the prosecution history.4 Hospira’s approach would bar consideration of these
Hospira also accuses the Federal Circuit of attempting to divine
Lilly’s “subjective” or “true” purpose in narrowing its claims during
prosecution. Hospira Pet. 7, 24. That is plainly wrong. The court of
appeals considered what the publicly available prosecution record
would inform a person in the field about the objective purpose for
the amendment. That is the same analysis this Court announced in
Festo: “Prosecution history estoppel requires that the claims of a
patent be interpreted in light of the proceedings in the PTO during
the application process.” 535 U.S. at 733.

3

Similarly, if the reason for amendment in the hypothetical was to
overcome prior art related to Pink Lady apples, the amendment

4

19
issues and prohibit “claims of equivalence for aspects of
the invention that have only a peripheral relation to the
reason the amendment was submitted,” in contravention
of Festo. 535 U.S. at 738.
b. For its part, DRL asserts that Festo announced a
second, different rule for assessing tangentiality. According to DRL, an equivalent is tangential to the rationale for a narrowing amendment—and not surrendered by the amendment—only “when an amendment
adds multiple limitations to a claim at the same time, and
not all relate to an examiner’s rejection.” DRL Pet. 18.
“The limitations unrelated to the examiner’s rejection
may fit the tangential exception.” DRL Pet. 18. But, according to DRL, the exception “generally does not apply
where the alleged equivalent and the reason for the
amendment both concern the same element.” DRL Pet.
18.
DRL’s preferred rule appears nowhere in Festo.
This Court did not spend pages touting the benefits of a
“flexible” approach to prosecution history estoppel only
silently to adopt a per se rule governing tangentiality in
particular, or prosecution history estoppel generally.
That is why, although the Federal Circuit recognized
that “DRL’s intuition—that an amendment that narrows
an existing claim element evinces an intention to relinquish that claim scope—is often correct,” it correctly
“decline[d DRL’s] invitation” to apply a “bright-line
rule” in view of Festo and the “equitable nature of prosecution history estoppel.” Pet. App. 25a. Instead, it recognized that even where an amendment involves only a
single claim element, there may be circumstances where
the prosecution record reveals that “the rationale underlying the amendment . . . bear[s] no more than a tangencould not be said to be peripheral to the claimed equivalent of a different apple variety.

20
tial relation to the equivalent in question.” Festo, 535
U.S. at 740; Pet. App. 26a.
At bottom, as with Hospira, DRL’s real disagreement is with the tangentiality exception itself: DRL asserts that Festo’s contemplation of the tangentiality exception has no “antecedents in this Court’s prior precedent, nor was it suggested in any brief in that case.”
DRL Pet. 17. But even if true that does not justify rewriting Festo or imposing artificial limitations on the exception, nor does it somehow render the decision below
inconsistent with it.
c. Petitioners each also point to the Federal Circuit’s
decision in Ajinomoto Co. v. ITC, 932 F.3d 1342, 1355
(Fed. Cir. 2019), as a further example of the Federal Circuit’s inconsistency with Festo. Hospira Pet. 23; DRL
Pet. 16. Notably, the pending petition for certiorari in
Ajinomoto relies on yet another supposed rule from Festo: that unless the prosecution record contains an “explicit and contemporaneous explanation[]” of the rationale for a narrowing amendment, a patentee cannot
overcome prosecution history estoppel, regardless of
what can be reasonably inferred from an objective reading of the record. See Pet. at i, 25, CJ CheilJedang Corp.
et al. v. ITC et al., No. 19-1062 (filed Feb. 24, 2020). Just
like petitioners’ respective theories, that rule finds no
support in Festo or any of this Court’s other cases.
d. Finally, DRL’s amicus Association for Accessible
Medicines (AAM) suggests yet a fourth conflict—that
the decision below conflicts with this Court’s decision in
Warner-Jenkinson. AAM Amicus Br. 14-15. According
to AAM, prosecution history estoppel cannot apply when
the patentee does not “‘establish the reason for [the]
amendment during patent prosecution.’” Id. at 14 (quoting 520 U.S. at 34). But in Warner-Jenkinson there was
no indication in the record of a reason for the amend-

21
ment at issue. Here, the reason for Lilly’s amendment—
to overcome the Arsenyan reference—is undisputed and
apparent in the record. Warner-Jenkinson does not
create an explicit statement rule of the sort advocated by
AAM.
*
*
*
There is a simple reason why the pending petitions
cannot agree on how the Federal Circuit has misinterpreted Festo—there is no misinterpretation.
II. There Is No Intra-Circuit Conflict

Petitioners also argue that the Federal Circuit’s
tangentiality decisions are internally inconsistent. But
here too petitioners cannot agree on the contours of the
intra-circuit conflict—i.e., whether the decision in this
case perpetuated a preexisting split that has existed for
more than a decade (DRL’s position) or whether the decision in this case created a split with every other decision that came before (Hospira’s position). Not a single
Federal Circuit judge has ever acknowledged either conflict. Petitioners point to no commentators identifying a
conflict. And no judge voted for rehearing en banc in
this case. For good reason: the court of appeals simply
applied a well-established standard to the specific prosecution record in this case.
1. DRL posits that the Federal Circuit is divided into two camps on the tangentiality exception. In some
cases, DRL claims, the court considers the patentee’s rationale for narrowing the claim at all, and in others the
court considers the patentee’s rationale for choosing the
particular amendment. DRL Pet. 18-22. DRL insists
that only the latter approach is consistent with Festo.
As far as Lilly is aware, DRL is the first (and only)
party to identify this purported intra-circuit conflict. If
the Federal Circuit were as profoundly divided on the

22
legal standard governing the tangentiality exception as
DRL claims, one would have expected at least one judge
of that court to have commented on that division. DRL
cites several dissenting and concurring opinions by Federal Circuit judges in cases involving the tangentiality
exception. DRL Pet. 17. But none of those opinions
suggests that the court is internally divided or has misconstrued the exception as articulated in Festo. And
even if one could plausibly posit that every Federal Circuit judge was simply unaware of the existence of such
widespread intra-circuit turmoil, surely some academic
or industry commentary would have taken note. DRL
cites none.
That is because the Federal Circuit has consistently
assessed tangentiality by focusing on the reason, as reflected in the prosecution history, that the patentee
amended its claims. See, e.g., Integrated Tech. Corp. v.
Rudolph Techs., Inc., 734 F.3d 1352, 1358-59 (Fed. Cir.
2013); Lucent Techs., Inc. v. Gateway, Inc., 525 F.3d
1200, 1218 (Fed. Cir. 2008); Regents of Univ. of Cal. v.
Dakocytomation Cal., Inc., 517 F.3d 1364, 1371 (Fed.
Cir. 2008); Insituform Techs., Inc. v. CAT Contracting,
Inc., 385 F.3d 1360, 1370 (Fed. Cir. 2004). There is no
separate line of cases, as DRL would have it, asking why
the patentee chose the precise amendment language that
it did as opposed to choosing some other hypothetical
wording that would also be consistent with the rationale
for the amendment. Rather, when the Federal Circuit
has reached different conclusions about whether the
tangentiality exception applies, it has applied a consistent legal standard but reached a different answer in a
different case with a different prosecution record. That
is a natural consequence of the flexible approach adopted
in Festo.

23
Indeed, the cases on either side of DRL’s line not only acknowledge one another but explicitly distinguish
each other on the facts. Take Amgen Inc. v. Hoechst
Marion Roussel, Inc., 457 F.3d 1293 (Fed. Cir. 2006),
which DRL counts as falling on the “correct” side of the
asserted conflict. DRL Pet. 18. That case acknowledges
and distinguishes Insituform Techs., Inc. v. CAT Contracting, Inc., 385 F.3d 1360 (Fed. Cir. 2004), which DRL
characterizes as “irreconcilable” with Amgen’s approach.
See Amgen, 457 F.3d at 1314 (“[U]nlike Insituform,
where it was clear that the amendment in question was
not made to limit the number of cups and overcome the
prior art, the requirement that EPO have exactly 166
amino acids may have been central to the allowance of
claims 2–4 over a double patenting rejection.”). The
opinion below likewise considered and distinguished Felix v. American Honda Motor Co., 562 F.3d 1157 (Fed.
Cir. 2009)—another case DRL offers as applying the
“correct” test—in light of differences in the prosecution
record between the cases. Pet. App. 23a-24a (“[Felix’s]
holding was determined by that patent’s prosecution history.”). None of the cases suggests that other cases applied an incorrect legal standard.
DRL also frames the debate between the majority
and dissent of Ajinomoto as illustrating its claimed intra-circuit split. DRL Pet. 18, 21. But Judge Dyk’s dissent does not quibble with the legal standard applied by
the majority. Instead, Judge Dyk simply disagreed with
the majority’s fact-based conclusion about tangentiality.
See, e.g., 932 F.3d at 1363 (Dyk, J., dissenting) (“[T]the
rationale for the narrowing amendment (avoiding a prior
art protein based on its encoding nucleotide sequence
that does not meet the newly claimed hybridization requirement) directly relates to the accused equivalent (a
protein made by an encoding nucleotide sequence that
does not meet the newly claimed hybridization require-

24
ment).”). The divergence between the Ajinomoto majority and dissent raises no profound dispute of governing
law.
2. Hospira, for its part, does not suggest any
longstanding divide within the Federal Circuit on the
tangentiality exception. To the contrary, Hospira asserts that prior to this decision, the court had consistently rejected the rule that a patentee surrenders only what
was necessary in a narrowing amendment. In Hospira’s
view, it was this case that created the intra-circuit conflict by adopting a “buyer’s remorse” defense. Hospira
Pet. 27-30. That argument simply rehashes Hospira’s
flawed characterization of the decision below. See pp. 1516, supra.
The decision below did not vary from the line of cases Hospira cites. The panel expressly agreed with the
general proposition that “[a]mendments are not construed to cede only that which is necessary to overcome
the prior art.” Pet. App. 22a. As Hospira admits, the
court of appeals not only considered the line of cases
Hospira cites in its petition, but also explicitly distinguished them on the facts. Hospira Pet. 30. At the same
time, the court recognized that “the tangential exception
only exists because applicants over-narrow their claims
during prosecution.” Pet. App. 22a. It thus looked in
this case, as it has in all cases, to the “reason for [the]
amendment” to determine whether to apply the exception. Pet. App. 22a.
3. The Ajinomoto petitioners also argue that the decision below departs from a line of precedent, but on different grounds. According to those petitioners, this case
and Ajinomoto depart from a requirement of an “explicit
and contemporaneous explanation[]” of the reason for
the amendment in the prosecution record. Pet. at 24-25
CJ CheilJedang Corp. et al. v. ITC et al., No. 19-1062

25
(filed Feb. 24, 2020). No decision announces such a rule
or even applies one in substance. Rather, the cases those
petitioners cite for the proposition that “silence” cannot
rebut the presumption of estoppel simply state the rule,
applied by the Federal Circuit in this case, that the reason for the amendment must be “discernible from the
prosecution history record.” E.g., Honeywell Int’l, Inc.
v. Hamilton Sunstrand Corp., 523 F.3d 1304, 1315 (Fed.
Cir. 2008) (internal quotation marks omitted); see also
Felix, 562 F.3d at 1184.
*
*
*
In Warner-Jenkinson and Festo, this Court granted
certiorari to review split decisions of the en banc Federal
Circuit where the circuit judges were deeply and admittedly fractured. Here, by contrast, no judge dissented
from the denial of rehearing en banc. The issue of prosecution history estoppel has generated no disagreement
at any level of review in these cases—whether in the district court, before the court of appeals panel, or before
the en banc court considering whether to grant rehearing. There is no intra-circuit conflict that justifies this
Court’s intervention.
III. The Petitions Do Not Present an Important Question
Warranting the Court’s Review

1. The petitions also do not present an important
question meriting this Court’s review. Petitioners and
their amici fail to identify any important policy consequences flowing from the Federal Circuit’s fact-bound
decision. They primarily suggest that the court’s decision undermines the public notice function of patents and
prosecution records in informing competitors of their potential infringement liability. E.g., Hospira Pet. 17-18,
20. That argument fails, for several reasons.
As an initial matter, this Court in Festo already considered the “delicate balance” between protecting novel

26
inventions and protecting the public’s freedom to “pursue innovations, creations, and new ideas beyond the inventor’s exclusive rights.” 535 U.S. at 731. With these
weighty concerns in mind, and having recognized that
the “boundaries [of the patent right] should be clear,”
the Court announced the tangentiality exception in the
very terms that the court of appeals applied. Id. at 730,
740. Petitioners do not ask this Court to overrule Festo,
and there is no reason for the Court to reweigh the policy concerns that it already considered.
Festo was not the first time this Court addressed the
public notice concerns raised by petitioners. It has done
so in doctrine-of-equivalents cases going back to the 19th
century. “Each time the Court has considered the doctrine, it has acknowledged [the uncertainty that results
from the rule] as the price of ensuring the appropriate
incentives for innovation, and it has affirmed the doctrine over dissents that urged a more certain rule.” Id.
at 732; see also Warner-Jenkinson, 520 U.S. at 29 (considering “definitional and public-notice functions of the
statutory claiming requirement” but declining to eliminate doctrine of equivalents); Graver Tank, 339 U.S. at
609 (“Equivalence, in the patent law, is not the prisoner
of a formula and is not an absolute to be considered in a
vacuum.”). Petitioners’ arguments recycle concerns
raised by dissenting Justices and rejected by the Court.
See, e.g., Graver Tank, 339 U.S. at 617-18 (Black, J., dissenting) (advocating for elimination of doctrine because
patent claims “gave the public to understand that whatever was not claimed did not come within his patent and
rightfully be made by anyone” (internal quotation marks
omitted)); Winans v. Denmead, 56 U.S. 330, 347 (1853)
(Campbell, J., dissenting) (objecting to doctrine because
“[f]ulness, clearness, exactness, preciseness, and particularity, in the description of the invention . . . and of the
matter claimed to be invented, will alone fulfil the de-

27
mands of Congress”). Petitioners’ policy arguments are
if anything “best addressed to Congress, not this Court.”
Warner-Jenkinson, 520 U.S. at 29.
In any event, the tangentiality exception promotes
the public notice function of patents because courts assess the exception’s applicability based on the objective
prosecution record. The Federal Circuit analyzed tangentiality based on that objective record, and its decision
is fully cognizant of the policy interests underlying that
exception. The exception applies only when the prosecution record reveals the reason for the amendment. Here,
that reason was to avoid the examiner’s rejection over
Arsenyan and its teachings about the distinct antifolate,
methotrexate. And nothing in the prosecution record indicates that the rationale underlying the amendment had
to do with distinguishing between different salt forms of
pemetrexed.
If anything, it is petitioners’ argument that courts
must consider hypothetical alternative amendments that
would break new ground and undermine the public notice function of the prosecution record. The tangentiality
exception necessarily focuses on the rationale for the patentee’s amendment—not the rationale for choosing that
particular language as opposed to another hypothetical
amendment that a challenger in litigation can conjure up
with the benefit of hindsight. There is no reason to expect that the prosecution history will address the reasons why the patentee did not use alternative, broader
language encompassing the equivalent when the
amendment was focused entirely on something else.
E.g., Insituform Techs., 385 F.3d at 1370. That is why
courts focus on objective indicia in the record of the motivation for the actual amendment. Here, the objective
indicia show that Lilly’s reason for its amendment was
peripheral to different salt forms of pemetrexed.

28
The Court should decline petitioners’ request to convert this case from a fact-specific dispute over the meaning of the prosecution history for the ’209 patent into a
radical rethinking of the tangentiality exception.
2. The Hatch-Waxman context of this case further
undermines petitioners’ concerns about public notice.
Petitioners’ proposed products contain the same antifolate
chemotherapeutic
agent
as
ALIMTA
(pemetrexed). The only difference between petitioners’
products and ALIMTA is that in solid form petitioners’
pemetrexed is attached to a different counter-ion (tromethamine). When the products are dissolved in solution and administered to patients, they are effectively
the same (which petitioners told FDA): the same active
compound, pemetrexed, treats cancer in the exact same
way, and the same patented vitamin pretreatment regimen lowers the incidence of severe toxicities that
pemetrexed otherwise might cause. Indeed, petitioners
did not design their products from scratch and did not
prove their products’ safety and efficacy independently
to FDA. Rather, under the Hatch-Waxman Act, petitioners relied on Lilly’s clinical data for ALIMTA to
prove the efficacy and safety of their products, and the
Hatch-Waxman application process required them to
evaluate whether they infringed the ’209 patent (and
thus to consider its public prosecution record). Petitioners also were on notice from the outset that their products were equivalent to ALIMTA; their “paper” NDAs
effectively conceded equivalence.
The Federal Circuit’s decision in this case thus simply reinforced the long-established proposition that a patent owner may pursue infringement claims against parties who make immaterial changes to patented products
in an effort to get around the patent. Petitioners’ products are precisely the sort of end-run around patent pro-

29
tection the doctrine of equivalents is intended to prevent.
The artificial rules proposed by petitioners would unfairly allow petitioners to reap for themselves the benefits of
Lilly’s innovation.
CONCLUSION

The petitions for a writ of certiorari should be denied.
Respectfully Submitted,
DOV P. GROSSMAN
DAVID M. KRINSKY
AMY MASON SAHARIA
CHARLES L. MCCLOUD
SUMEET P. DANG
WILLIAMS & CONNOLLY
LLP
725 Twelfth Street, NW
Washington, D.C. 20005
JAMES P. LEEDS
ELI LILLY AND COMPANY
Lilly Corporate Center
Indianapolis, IN 46285
APRIL 27, 2020

ADAM L. PERLMAN
Counsel of Record
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, D.C. 20004
(202) 637-2277
adam.perlman@lw.com

